                       Pension Benefit Guaranty Corporation
                                                        Office of Inspector General
                                        1200 K Street, N.W., Washington, D.C. 20005-4026

                                                                             February 1, 2005

                                       MEMORANDUM


TO:             Bradley Belt
                Executive Director

FROM:           Robert L. Emmons
                Inspector General

SUBJECT:        PBGC Email Retention Policy

During my monthly update meeting with you in December, I agreed to benchmark PBGC’s email
retention policies with other federal agencies to identify best practices. As we discussed,
excessive email retention increases cost and impacts on the operability of our networks.

In response to your request, I asked Luther Atkins to benchmark with other Federal Agencies.
Seven of the eight federal agencies we contacted provided us with their policy. As you might
expect, retention policies vary widely, but there are generally two approaches to managing email.
The first is a voluntary approach, where it is left to the individual employee to monitor and
control the volume of emails that are retained. The second approach is to take a more proactive
role by limiting the amount of email storage space that each employees is allowed.

Based on our benchmarking, the proactive approach is used by six of the seven agencies that
responded (the exception was the Federal Reserve Board, who uses a voluntary approach). The
proactive approach improves an agency’s ability to manage resources, reduce cost and minimize
the risk of retaining excessive amounts of email. For example, three agencies automatically
delete or archive emails in a user’s mailbox after a specified period of time (e.g. 30, 45, or 90
days).

We also noted that Department of Homeland Security follows Microsoft’s best practices for
Exchange Database management:

        Without a conscientious approach to capacity management, the size of your
        information store databases will quickly get out of control. We suggest that you
        set a maximum information store size and then manage the information store
        within those limits.

PBGC’s email policy has always been to use a voluntary approach, with employees having the
primary responsibility for managing the volume of email retained on our computers. OIG has
discussed email retention with Office of Information Technology in the past, and they share our
concern with the volume of email retained by employees. When I discussed our most recent
work with Rick Hartt, he said that several initiatives have been implemented to reduce the amount
of email. The most recent initiative included an information campaign to emphasize the
importance of archiving emails.
Rick also provided me with the draft policy that covers the use of email that he is discussing with
the union. We believe the policy is a step in the right direction, but there are two aspects of the
policy that based on our benchmarking, are much more liberal than other Agencies. First, the
policy provides for a 400 megabyte limit on each employees mailbox. The norm in other
agencies was generally 100 megabytes. Second, the policy does not specify the actions that will
be taken when the policy is not followed.

Most agencies have a policy that requires automatic archiving of emails after a specified period of
time (e.g. 30, 45, or 90 days), or when the mailbox exceeds size limits. At two agencies, the
policy was draconian when compared to our policy. At Federal Deposit Insurance Corporation,
users can’t send outgoing emails when mailboxes exceed 100 megabytes. At Federal Trade
Commission, email older than 45 days is automatically deleted and cannot be recovered.

While we don’t advocate a draconian policy, we do think proactive controls would improve
PBGC’s ability to manage email effectively. In our recent investigations that were referred to us
by the Office of Information Technology, we noted that a large number of employees stored
excessive amounts of emails, and many employees stored a large volume of non-business files on
computers. Based on our findings and our benchmarking, we suggest that you consider
strengthening the draft email retention policy by reducing the authorized size of mailboxes and
requiring automatic archiving when employees exceed mailbox size limits.

I have discussed this memorandum with Rick Hartt. A summary of the benchmarking information
we gathered is attached. If you have any questions or need additional information, let me know.


cc: Rick Hartt
        Results of Benchmarking on Email Retention

The following are summarizations of how email is administered, controlled, or used in a
sample of federal agencies.

Federal Trade Commission

        The FTC’s policy regarding e-mail is available on the intranet and details the
         types of e-mail records that must be saved and the proper procedure for saving
         these e-mails.
        The agency’s e-mail system will not provide users with auto-archive
         functionality.
        All e-mails older than 45 days in agency mailbox folders will be deleted
         automatically and they will not be recoverable.
        E-mail archives are not an appropriate records storage system and should be
         used to store only items that are of temporary value regarding matters or issues
         that are currently pending.
        All employees must review the e-mails that they have archived and delete
         everything that the agency is not required to retain or that is no longer
         applicable to open matters.

Department of Energy

        E-mail is not purged until an individual’s mailbox is full. Once full, a network
         warning appears telling the user to clean out old e-mails. The message re-
         appears until the situation is addressed.
        Auto-archiving can be set at the individual’s discretion (e.g., every 90 days). All
         archived messages are moved off the mail system and placed in stand alone
         folders/files.

Federal Deposit Insurance Corporation

        Mailbox size is limited to 100MB. Once that limit is met, e-mails cannot be sent
         (but can be received) until the size of the mailbox is reduced.
        On a weekly basis, messages in the mailbox “Sent Items” folder that are older
         than 21 days are moved to a “Cleanup” folder in the mailbox. An e-mail is sent
         notifying the user of what action was taken.
        Messages in the “Cleanup” folder are retained for approximately 40 days longer
         before they are actually deleted.

Department of Labor – Bureau of Labor Statistics

        Once a mailbox reaches 80MB, a warning e-mail message is sent to the user
         and e-mail can still be received, but not sent.
        Once a mailbox reaches 100MB, the user cannot send or receive any e-mail.
        Deleted e-mail is retained in the e-mail server for 30 days before being removed.
        Auto-archive is set and maintained at the user’s discretion.
        Cannot automatically forward any e-mail using out-of-office assistant or inbox
         assistant.
We also requested information from other agencies. These either sent policy statements
on the use of e-mail not including any information on the configuration or
administration of e-mail, or did not respond at all. The other agencies from who we
requested information and their response were as follows:

Social Security Administration

Attached are the e-mail policy and other information provided by SSA. One interesting
item is that they limit the size of e-mail attachments sent through the SSA e-mail
system to 5MB. They also include their policy on deleting any file extension of “+.vbs”
or “.exe”.

Board of Governors of the Federal Reserve Board

They also provided their high-level e-mail policy statement that is available on their
intranet. It is very similar to the policy statement at PBGC.

Department of Homeland Security

This agency responded that they follow the Best Practices for Exchange Database
Management from Microsoft. The following is one interesting item was highlighted in
the document:

       Capacity Management
       An important issue when planning your Exchange system is determining how
       much disk space you'll need for the information store. Without a conscientious
       approach to capacity management, the size of your information store databases
       will quickly get out of control. We suggest that you set a maximum information
       store size and then manage the information store within those limits. You can
       get a good idea of how big your databases will grow by setting mailbox quotas
       and tracking the growth of the information store over time. You should have
       enough free space to support the messaging needs of the users on the server,
       but mailbox storage limits should be set such that users don't consume
       excessive amounts of disk resources.

Department of Education

Response not received in time to be included in this document.
